Audit Report - Office on Violence Against Women Legal Assistance for Victims, Grant No. 1998-Wl-VX-0023, Legal Aid of Nebraska, Omaha, Nebraska

Office on Violence Against Women, Legal Assistance for Victims
Grant No. 1998-WL-VX-0023, Legal Aid of Nebraska, Omaha, Nebraska

Audit Report GR-60-05-012


September 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Legal Assistance for Victims Grant No. 1998 WL VX 0023 in the amount of $1,981,552 (including four supplements) awarded by the Office on Violence Against Women (OVW) to Legal Aid of Nebraska (Legal Aid), Omaha, Nebraska.  The purpose of the grant is to strengthen legal assistance for victims of sexual assault, stalking, and domestic violence through innovative, collaborative programs.  The grant is intended to increase the availability of legal assistance in order to provide effective aid to victims who are seeking relief in legal matters arising as a consequence of abuse or violence.

We tested Legal Aids accounting records to determine if costs claimed under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  As of January 10, 2005, Legal Aid had been reimbursed $1,557,464 of the $1,981,552 total grant funds awarded.

Our audit revealed that Legal Aid claimed and was reimbursed for unallowable and unsupported costs.  We found that Legal Aid (1) did not maintain adequate accounting records of costs charged to the grant; (2) did not adequately monitor its contractors; and (3) was reimbursed for costs charged to the grant that were not supported by adequate documentation or were not allowable according to the approved grant budget.  Further, Financial Status Reports (FSRs) and Progress Reports were not accurate, and were not always submitted timely.
	
Based on the deficiencies listed below, we identified dollar related findings totaling $1,277,909 or 64.5 percent of the $1,981,552 total grant funds awarded.1   Specifically, we found:

Legal Aid did not adequately monitor its contractors.

	Legal Aid did not maintain adequate accounting records for grant funds during 2002 through 2004 resulting in questioned costs of $1,024,472.

	Legal Aid was reimbursed $195,243 for direct costs charged to the grant that were not allowable in accordance with the approved grant budget.

	Legal Aid was reimbursed $36,820 for indirect labor costs charged to the grant that were not allowable in accordance with the approved grant budget.

	Legal Aid was reimbursed $21,577 in unallowable questioned costs for unreasonable and excessive fringe benefits.

	Legal Aid was reimbursed $6,224 for Federal Insurance Contributions Act (FICA) taxes that exceeded the requirements of the Internal Revenue Code.

	Legal Aid was reimbursed $14,537 for costs charged to the grant that were not supported by adequate documentation.

	Legal Aid was reimbursed $2,222 for training that was not allowable because the training was not OVW sponsored or approved by OVW in advance.

	Financial Status Reports were not always submitted timely and were not accurate.

	Progress Reports were not always submitted timely and were not accurate.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.

   



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.